  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
